DOE/IG-0028
                            United States Department of Energy




                              Office of Inspector General

Inspector General's
Message - Page 1

The Department's
Management Challenges
and Significant OIG
Accomplishments
Page 4

Other Significant
Accomplishments
Page 34




OIG Reports Issued
and Followup Action
Process - Page 46


Statistical Data-Savings,
Questioned Costs,
Hotline Statistics, and
Fines, Settlements
and Recoveries
Page 51
                                  October 1, 2002 - March 31, 2003
                                 At Your Service




                    THE INSPECTOR GENERAL’S           1
                    MESSAGE
Table of Contents




                    MANAGEMENT CHALLENGES             4
                    AND SIGNIFICANT ACCOMPLISHMENTS


                    OTHER SIGNIFICANT                 34
                    ACCOMPLISHMENTS


                    REPORTS ISSUED                    46



                    STATISTICS                        51
                                                                            At Your Service



                                                               T         his Semiannual Report presents the Office of
                                                               Inspector General’s (OIG) significant accomplishments for the
                                                               6-month period, October 1, 2002, through March 31, 2003.
                                                               During this reporting period, the OIG helped the Department
Inspector General's Message


                                                               identify areas of its programs and operations most vulnerable
                                                               to waste, fraud, and mismanagement.

                                                               The OIG completed its annual assessment of the most serious
                                                               challenges facing the Department. This year, the OIG
                                                               identified seven key management challenge areas, which are
                                                               briefly discussed in the Management Challenge section of this
                                                               Report. One of the seven areas highlighted in the Management
                                                               Challenge report is contract administration. Because the
                                                               Department is heavily reliant on contractors to perform its
                                                               missions, successful contract administration is critical to
                                                               effective operations.

                                                               On March 20, 2003, I testified before the U.S. House of
                                                               Representatives Committee on Government Reform on the
                                                               Department’s contract administration activities. Over the past
                                                               several years, the Department initiated a series of actions to
                                                               improve its contract administration. These initiatives included
                                                               developing alternative contracting approaches, increasing
                                                               competition and using performance-based contracts. Despite
                                                               these efforts, OIG reviews show that the Department
                                                               continues to have significant contract administration
                                                               weaknesses. As a result, taxpayer funds are not always spent
                                                               economically and efficiently. Weaknesses disclosed by
                                                               our reviews include the failure to:
                              Gregory H. Friedman
                              Inspector General                         •    Develop quantifiable, outcome-oriented contractor
                                                                             performance measures;

                                                                        •    Maintain a system to track critical aspects of
                                                                             contractor performance;

                                                                        •    Require strict adherence to contract terms;

                                                                        •    Require utilization of a full range of project
                                                                             management tools; and



                              Additional information on the OIG, including the full text of its public reports and Department
                              management’s comments, can be found on the OIG website – www.ig.doe.gov.                          1
                         At Your Service

                     •   Rate and reward contractors commensurate with
                         their performance.

              In recent months, we also have focused substantial attention on
              the Department’s Los Alamos National Laboratory (LANL)
              because of allegations about procurement and other
              irregularities. On February 26, 2003, I testified before the
              House Subcommittee on Oversight and Investigations on the
              OIG’s recent inquiry which focused on whether LANL had
              engaged in a deliberate coverup of procurement irregularities
              and security concerns. This review, originally requested by the
              National Nuclear Security Administration (NNSA) Acting
              Administrator, was expanded to evaluate the circumstances
              surrounding the termination of employment of two security
    economy

              officials who had been vocal in criticizing LANL
              management’s handling of property loss and theft issues.

              Our report noted that actions taken by LANL officials obscured
              serious property and procurement problems and weakened
              relevant internal controls. These actions created an atmosphere
              in which LANL employees were discouraged from, or had
              reason to believe they were discouraged from, raising concerns
              to appropriate authorities. Furthermore, despite these
              weaknesses, the Department gave LANL an excellent rating in
              both personal property and procurement management. A
              summary of our report, Operations at Los Alamos National
              Laboratory (IG-0584, January 2003), can be found on page 5.

              Similarly, an OIG inspection reported on February 21, 2003,
              that weaknesses existed at LANL in its administration of its
              firearms inventory. We noted, for example, that 12 firearms
              received in 1999 were not entered into LANL’s inventory. A
              summary of this report can be found on page 6.

              Other OIG reviews, as well as matters under the purview of the
              Federal Bureau of Investigation (FBI), are continuing at LANL
              to address a number of related concerns. These efforts include:

                     •   A review of allowable costs claimed by the
                         University of California under its contract to
                         manage LANL for the Department;




2
                     At Your Service
                    •   A review of LANL’s controls over laptop and
                        desktop computers; and

                    •   A number of investigations regarding misuse of
                        purchase authority.

             In addition, the OIG continues to conduct reviews to assess
             the Department’s progress in implementing the President’s
             Management Reform Agenda and addressing the key
             management challenge areas and the Secretary’s priorities.

             We look forward to continuing to help the Department,
             including the NNSA, in its efforts to improve program
efficiency
             efficiencies and economies.




                                                                           3
                                                                           At Your Service



                                                               T         his section of the Report highlights the OIG’s review
                                                               of the seven most serious management challenge areas facing
                                                               the Department. Report summaries associated with each of the
                                                               management challenges are also included in this section.
Significant Accomplishments
Management Challenges and




                                                               Management Challenges at the Department
                                                               of Energy
                                                               As required by the Reports Consolidation Act of 2000, the OIG
                                                               annually identifies the most significant management and
                                                               performance challenges facing the Department. As in the past,
                                                               the methodology employed by the OIG relies on recent and
                                                               ongoing audit, inspection, and investigation work.

                                                               The following are the most serious challenges facing the
                                                               Department in 2003:

                                                                             •   Contract Administration
                                                                             •   Environmental Cleanup
                                                                             •   Information Technology Management
                                                                             •   National Security
                                                                             •   Performance Management
                                                                             •   Stockpile Stewardship
                                                                             •   Worker/Community Safety

                                                               Since the OIG’s last report, the Department’s senior
                                                               management has had some success in addressing previously
                                                               reported challenges. As a result, the previously identified
                                                               Energy Supply, Human Capital, and Research and
                                                               Development Investment challenges have been deleted from
                                                               the list of challenges. It should be noted, however, that these
                                                               areas are complex in nature and will continue to require
                                                               management’s attention and assessment.

                                                               The OIG will continue to evaluate agency performance and
                                                               accountability in an effort to improve programs and operations,
                                                               particularly as they relate to the management challenge areas
                                                               mentioned above. (IG-0580)




                              Additional information on the OIG, including the full text of its public reports and Department
4                             management’s comments, can be found on the OIG website – www.ig.doe.gov.
                                                At Your Service

                                      A brief description of each of the management challenges
                                      facing the Department and reports that are associated with the
                                      challenge areas follow.

                                      O Contract Administration
                                      The Department’s programs are largely accomplished through
Did you know?
                                      contractors that operate and manage a broad range of
For FY 2002, the Department           scientific and production activities and facilities for the
spent about 92 percent of its total   Department. These contracts, with an annual value of about
annual budget, or about $19.5         $15.7 billion, represent the largest share of the Department’s
billion, on contracts. Of that
                                      budget. Contract administration, which includes project
amount, the Department spent
about $15.7 billion on contracts to
                                      management, has been a longstanding challenge. Although
manage or operate 28 major            the Department changed its contract management approach, it
Department sites.                     continues to experience difficulties in the management of
                                      some of its major projects. Since the early 1990’s, the OIG
Source: FY 2004 Congressional
Budget Submission, and the
                                      has issued a series of reports critical of the planning,
Department Procurement and            justification, and management of major projects. Recent OIG
Assistance Data System.               reviews have found the following.

                                      Special Inquiry Raises Serious Concerns
                                      Regarding Management Operations at the Los
                                      Alamos National Laboratory

                                      The OIG conducted an inquiry into allegations that senior
                                      management of LANL engaged in a deliberate coverup of
                                      security breaches and illegal activities, in particular, with
                                      respect to reported instances of property loss and theft. The
                                      Acting Administrator, NNSA, requested this inquiry based on
                                      numerous media reports that LANL employees had misused
                                      the Government purchase order system to buy millions of
                                      dollars worth of goods for personal use and that LANL
                                      management attempted to cover up security breaches and hide
                                      illegal activities from the Department and the public. Shortly
                                      after the inquiry began, LANL terminated the employment of
                                      two security officials who had been vocal in criticizing LANL
                                      management’s handling of property loss and theft issues. The
                                      OIG expanded its review to evaluate the circumstances
                                      surrounding the terminations. Subsequent to the review, the
                                      University re-hired the two security officials.

                                      The inquiry disclosed a series of actions by LANL officials
                                      that had the effect of obscuring serious property and
                                      procurement management problems and weakened or

                                                                                                    5
                           At Your Service
                    overrode relevant internal controls. These actions contributed
                    to an atmosphere where LANL employees were discouraged
                    from, or had reason to believe that they were discouraged
                    from, raising concerns about property loss and theft or other
                    concerns to appropriate authorities. Although the inquiry did
                    not substantiate the allegation that LANL’s management
                    deliberately hid criminal activity, the OIG found that LANL
                    management: (1) issued, then immediately rescinded, a
                    memorandum requiring corrective actions to address
                    problems regarding the management of Government property;
    effectiveness
                    and (2) issued documents that could be interpreted as
                    discouraging LANL employees from reporting on the extent
                    or severity of control weaknesses. In addition, the inquiry
                    raised serious concerns about the firing of the two security
                    officials. LANL fired these officials soon after they spoke
                    with the OIG. The OIG found both the timing of and the
                    rationale for the terminations to be incomprehensible.

                    The inquiry corroborated a number of the concerns expressed
                    by the terminated security officials related to weak internal
                    controls and other property management issues. Specifically,
                    the OIG found: (1) inadequate or untimely analysis of and
                    inquiry into property loss or theft and security issues; (2) a
                    lack of personal accountability for property; (3) a substantial
                    degree of dysfunction in LANL’s communication and
                    assignment of responsibilities for handling property loss and
                    theft concerns; and (4) inadequate controls over procurement
                    and property systems.

                    The OIG recommended a series of corrective actions. In
                    particular, responsible Department officials must ensure that
                    the University of California and LANL’s management are
                    held accountable for implementing and executing corrective
                    actions resulting from the current situation at the Laboratory.
                    (IG-0584)

                    Internal Control Weaknesses Over Firearms at
                    Los Alamos National Laboratory
                    The OIG conducted an inspection to determine the adequacy
                    of internal controls over LANL’s firearms and whether the
                    LANL firearms inventory was appropriately administered.
                    After several unsuccessful efforts to obtain an accurate




6
                     At Your Service

          firearms inventory from LANL sources, the OIG used the best
          data available to account for firearms maintained as LANL
          property. The inspection concluded that significant internal
          control weaknesses existed in the receiving process and the
          administration of the firearms inventory. Specifically, the
          OIG found that: (1) LANL officials were unable to readily
          provide an accurate firearms inventory list, due in part to the
          use of inconsistent nomenclature descriptions in the LANL
          property database; (2) some firearms were not entered in the
          inventory, including 12 shotguns that were received in 1999;
          (3) inventory validations conducted in 2000, 2001, and 2002
          failed to identify inaccuracies that existed in LANL’s firearms
          inventory; (4) separate firearm inventories maintained by
economy

          LANL and the protective force contractor were not
          reconciled; and (5) all firearms were not consistently
          processed through a central receiving point, resulting in
          delays in entering some firearms into LANL’s property
          inventory.

          The OIG recommended a series of actions designed to
          improve LANL’s internal control over firearms and the
          administration of its firearms inventory. Department
          management agreed with the recommendations and initiated
          corrective actions. (IG-0587)

          Brookhaven National Laboratory’s Emergency
          Medical Coordination Agreement Not Fully
          Implemented
          To respond to possible exposure to radioactive and hazardous
          materials and industrial accidents at DOE sites, the
          Department’s site contractors have established formalized
          agreements with local emergency medical providers. These
          arrangements are generally documented through memoranda
          of agreement (MOAs). The OIG conducted an inspection to
          determine if the contractor operating the Brookhaven
          National Laboratory (Brookhaven) effectively implemented
          and adequately managed its May 11, 1999, emergency
          medical response agreement with Stony Brook University
          Hospital (Stony Brook).

          The inspection found that Brookhaven had not fully
          implemented the terms of its MOA with Stony Brook.




                                                                         7
                                                   At Your Service

                                            Brookhaven was obligated under the MOA to provide Stony
                                            Brook with annual training and any agreed upon
                                            decontamination equipment and supplies needed for the care
                                            of victims of radiation accidents. Brookhaven did not provide
                                            annual radiological training to Stony Brook personnel in FY
                                            2001 and had not provided the training for FY 2002 as of the
                                            time of the OIG site visit in June 2002. Also, as of the time
                                            of the site visit, Brookhaven officials had not met with
                                            hospital officials to determine what type of decontamination
                                            equipment and supplies should be provided to Stony Brook
                                            for the care of victims of radiation accidents.

                                            Further, the OIG found that the MOA had not been updated
                                            or reviewed since it was signed in May 1999. The MOA
                                            contained incomplete and outdated information. The OIG
                                            also found that key emergency response management
                                            documents, including Brookhaven’s Emergency Plan, Hazard
                                            Assessment, and MOA, had not been reviewed or approved
                                            by the Department because Brookhaven had not routed the
                                            documents to the Department for review and approval.

                                            The OIG recommended that the Department take appropriate
                                            steps to: (1) ensure that the Brookhaven MOA is fully
                                            implemented; (2) ensure that the MOA is periodically
                                            reviewed and appropriately updated; and (3) ensure that the
                                            Department has the opportunity to review and approve the
                                            MOA and other emergency management documents.
                                            Department management agreed with the recommendations.
                                            (IG-0594)

                                            The Department Needs to Better Evaluate the
                                            Necessity to Dismantle Its Domestic Calutron
                                            Isotope Production Capabilities
                                            In August 2002, the Department formalized its plan to
                                            permanently eliminate the domestic capability to produce
                                            electromagnetically enriched stable isotopes. The
                                            Department intended to dismantle the machinery used to
                                            produce the isotopes, called calutrons, and rely on one of the
                                            following: (1) existing Department inventories; (2) Russian-
                                            produced isotopes; or (3) the adaptation of other isotope
                                            separation technologies to meet the domestic demand for
A track of calutrons which produce stable   stable isotopes. An audit was conducted to determine if the
isotopes. Oak Ridge National Laboratory’s
Y-12 Plant.


8
                       At Your Service

             Department would be able to ensure the availability of stable
             isotopes if it eliminated its domestic isotope production
             capability.

             The audit determined that the Department may not be able to
             ensure the availability of a full range of stable isotopes if the
             calutrons were dismantled. The audit disclosed that: (1) the
             current inventories of some isotopes are insufficient to cover
             future demand; (2) the future supply of Russian-produced
             isotopes may be unreliable; and (3) no proven alternative
             technologies to replace the calutrons are available.
             Furthermore, the audit concluded that if the Department
efficiency

             proceeded with its plans, the United States would lose the
             capability to produce up to 110 stable isotopes and potentially
             become more dependent on Russia to meet its domestic
             needs.

             The OIG recommended that the Director of the Office of
             Nuclear Energy, Science and Technology: (1) conduct a
             comprehensive study to identify the cost and operating
             benefits of disabling the calutrons versus continuing to
             maintain their current condition until such time as
             replacements can be obtained; and (2) continue to maintain
             the calutron isotope production capability until a more viable
             alternative has demonstrated the ability to produce a wide
             variety of isotopes similar to that provided by the calutrons.

             Department management partially concurred with the
             recommendations and, based on the results of the
             recommended cost analysis, agreed to maintain the calutrons
             in a standby but operable condition until they are no longer
             needed. Management did not believe, however, that the entire
             production capacity associated with the current calutrons
             would be needed. Management also stated that, based on its
             own 4-year inventory analysis, there was no meaningful
             shortage of isotopes in the United States inventory. In
             addition, management stated that the Russian supply of
             isotopes was reliable and that the world stable isotope supply
             was robust and competitive. Finally, management planned to
             continue pursuing the purchase of a small number of
             replacement calutrons to pair with other technologies to
             address the possible future need for small quantities of
             specialized research isotopes. (IG-0574)




                                                                             9
                                                           At Your Service

                                                    Idaho Settlement Agreement Activities Exceed
                                                    Cost Expectations
                                                    In 1995, the Department entered into a settlement agreement
                                                    with the State of Idaho and the Department of the Navy
                                                    concerning the management of spent nuclear fuel and
                                                    radioactive waste at the Idaho National Engineering and
                                                    Environmental Laboratory (INEEL). The agreement resulted
                                                    in the end of litigation with the State and required the
                                                    Department to remove all transuranic (TRU) waste, high-
                                                    level waste, and spent nuclear fuel from the State by 2035.
                                                    The agreement also mandated that during this period the State
                                                    of Idaho would allow DOE and the Department of the Navy
                                                    to continue shipping spent nuclear fuel to INEEL for storage.
                                                    The OIG conducted an audit to determine whether the
                                                    Department has met the commitment dates and cost
                                                    expectations set forth by the terms of the agreement.

                                                    The audit determined that the INEEL has met the
Final shipment of transuranic waste leaving INEEL   Department’s time commitment for transferring the spent
for the Department’s Waste Isolation Pilot Plant    nuclear fuel it received from Three Mile Island to dry storage
                                                    and is on track to meet its commitment for shipping 3,100
                                                    cubic meters of TRU waste out of the State of Idaho to the
                                                    Waste Isolation Pilot Plant (WIPP). However, the Three-
                                                    Mile Island spent nuclear fuel project exceeded cost
                                                    expectations by $18 million and the TRU waste project is
                                                    expected to exceed cost expectations by $150 million.
                                                    Although events outside the Department’s control contributed
                                                    to cost overruns, the audit found that weaknesses in basic
                                                    project management controls were also factors. As a result,
                                                    these overruns have caused the Department to cancel, defer,
                                                    or reduce the scope of other mission-critical work at the
                                                    INEEL.

                                                    The OIG recommended that the Assistant Secretary for
                                                    Environmental Management apply the project management
                                                    principles contained in Department Order 413.3, Program
                                                    and Project Management for Acquisition of Capital Assets, to
                                                    all projects, including operational projects. The OIG also
A group of 14 drums of transuranic waste at         recommended that the Manager, INEEL, strengthen project
INEEL being lowered into a Trupact-2 shipping
                                                    management controls to ensure that: (1) project plans
cask
                                                    adequately define the work to be performed; and (2) life-
                                                    cycle cost estimates are established before work begins,
                                                    including contingencies for unknown factors that could result
                                                    in additional costs.


     10
                          At Your Service

                Department management agreed with the recommendations to
                improve project management controls. The Office of
                Environmental Management has taken actions to enforce the
                implementation of Department Order 413.3 to all projects. In
                addition, the INEEL contractor is implementing a planning
                process identifying the detailed work scope, schedule, and
                resources necessary to complete the project. (IG-0571)

                Transfer of Excess Property to a Community
effectiveness
                Reuse Organization Does Not Assure that the
                Government Received Reasonable Value
                During the 1990’s, as a result of changes in program
                direction, the Department downsized or reconfigured a
                number of facilities, including the Nevada Test Site. To
                mitigate economic impact, Congress authorized the
                Department to transfer excess personal property and provide
                other aid to local development organizations, commonly
                referred to as community reuse organizations (CRO).
                Transferred excess property was to be used solely for
                community transition activities. Despite the realization that
                the transfers might be made at less than fair market value, the
                Department was to receive reasonable consideration from the
                CROs for the personal property. The OIG conducted an audit
                to evaluate the process through which the Nevada Site Office
                (NSO) transferred personal property to the local CRO.

                The audit disclosed that NSO’s personal property transfer
                practices did not strike an appropriate balance between the
                effort to assist community development and the need to
                assure that Federal taxpayers received reasonable
                consideration. Specifically, NSO: (1) sold a drill rig to
                the local CRO for $50,000 that is now being offered for
                sale by an out-of-State equipment broker for $3.9 million;
                (2) transferred hundreds of pieces of equipment, including
                trucks, office machines, and trailers, to the CRO for $1 per
                transfer; and (3) provided laboratory equipment to the CRO
                that was needed at another Department site, ultimately
                causing the Department to spend $2.5 million unnecessarily.

                The OIG found that, in most cases, NSO made little, if any,
                effort to determine the current market value of the property
                provided to the CRO, nor did it confirm that the equipment’s
                ultimate use would be for purposes directly related to



                                                                             11
                                           At Your Service

                                    developing the economies of communities in and around the
                                    NSO. Under these circumstances, the OIG does not think it
                                    was possible for the NNSA, NSO’s parent organization, to
                                    make informed judgments as to the appropriateness of
                                    particular property transfers.

                                    On January 22, 2003, the Department issued a memorandum
                                    providing new operating guidance that should help ensure the
                                    close monitoring of future personal property transfers. The
                                    memorandum, among other things, provided that the proceeds
                                    from asset conversion programs must be used in support of
                                    clear community economic development purposes and set
                                    forth the priorities for use of excess personal property.

                                    While the new guidance is a good start, the OIG believes the
                                    NNSA needs to emphasize that only unneeded property is
                                    transferred to the CROs and that the Department receive
                                    reasonable consideration for transfers of property to the
                                    CROs. Further, the NNSA should better define the term
                                    “reasonable consideration.” NNSA agreed with the OIG
                                    recommendations. (IG-0589)

                                    O Environmental Cleanup
Did you know?                       Cleaning up contaminated sites and disposing of radioactive
                                    waste is one of the greatest challenges the Department faces.
By the end of FY 2002, the Office   The Department continues to encounter significant
of Environmental Management had
                                    environmental challenges due to past operations that left a
completed cleanup of 75 of the
114 contaminated sites for which
                                    legacy of unacceptable risk to the environment. These
it was responsible.                 circumstances dictate that continued high priority must be
                                    given to evaluating and correcting the impacts of past
Source: Department of Energy FY     practices and activities. The Department’s goal is to clean up
2002 Performance and
Accountability Report.
                                    as many sites as possible by 2006. While the Department has
                                    implemented an aggressive plan to accelerate cleanup of its
                                    contaminated sites, OIG reviews continue to disclose the need
                                    for increased management attention to achieving its goal.
                                    The OIG completed the following reviews of this important
                                    challenge area.

                                    Audit Identifies Operational Inefficiencies in the
                                    Treatment of Mixed Incinerable Waste
                                    The Department estimates that about 11,000 cubic meters of
                                    mixed incinerable solid waste will require treatment and


12
                                                      At Your Service

                                            disposal through 2010. The two major resources available for
                                            treatment of this waste are the Toxic Substances Control Act
                                            (TSCA) Incinerator and the Vacuum-Assisted Thermal
                                            Desorption (VTD) System, both located in Oak Ridge,
                                            Tennessee. The OIG conducted an audit to determine
                                            whether the Department was treating its mixed incinerable
                                            solid waste in an expeditious and cost-effective manner.

                                            The audit disclosed significant inefficiencies in the treatment
                                            and storage of the Department’s mixed incinerable waste.
                                            Specifically, the TSCA Incinerator, in FY 2002, was only
                                            used at 31 percent of its demonstrated capacity; the VTD
                                            System, for the first 9 months of 2002, utilized only 55
                                            percent of its capacity to process mixed incinerable waste;
                                            and 7 Departmental sites continued to store 2.5 million
                                            pounds of incinerable waste locally despite underutilized
                                            treatment facilities. In addition, the Department approved the
                                            development of a VTD treatment facility in Utah, even
Toxic Substances Control Act Incinerator,   though Oak Ridge existing facilities were underutilized. The
Oak Ridge, Tennessee.                       OIG concluded that the Department was not doing all that it
                                            could to minimize the risk of processing the materials.
                                            Furthermore, better utilization of existing treatment facilities
                                            could result in the avoidance of $45 million in unnecessary
                                            costs over the next 4 years.

                                            The OIG made a number of recommendations intended to
                                            assist: (1) the Office of Environmental Management in
                                            managing the treatment of materials as a complex-wide
                                            activity; and (2) the Oak Ridge Operations Office in more
                                            effectively managing the TSCA Incinerator. Department
                                            management agreed with the recommendations and initiated
                                            corrective action. (IG-0588)

                                            Audit Recommends Suspension of Plans to
                                            Centralize the Processing of Contact-Handled
                                            Transuranic Waste
                                            The WIPP in Carlsbad, New Mexico, is the Department’s
                                            underground repository for defense-generated TRU waste.
                                            TRU waste that can be safely handled without special
 Waste Isolation Pilot Plant, Carlsbad,     equipment is referred to as contact-handled TRU waste. As
 New Mexico                                 of December 2000, the Department was responsible for 26
                                            sites in 15 States that processed contact-handled TRU waste.
                                            The Department notified the New Mexico Environment


                                                                                                          13
                                                 At Your Service

                                          Department in June 2001 of its intention to centralize the
                                          capability for processing contact-handled TRU waste at
     Did you know?                        WIPP. According to the permit modification, the proposed
                                          capability would enable the Department to expedite the
     The WIPP is the world’s first        removal of contact-handled TRU waste from temporary
     underground repository licensed to
                                          storage sites and minimize total costs of disposal. The OIG
     safely and permanently dispose of
     transuranic radioactive waste left
                                          conducted an audit to determine whether the centralized
     from the research and production     waste disposal capability would expedite the removal of
     of nuclear weapons. Transuranic      contact-handled TRU waste and minimize costs.
     waste is currently stored at 23
     locations nationwide. Over a 35-
     year period, WIPP is expected to
                                          The audit found that the plan to centralize the processing is
     receive about 37,000 shipments of    unlikely to expedite the removal of waste or save costs to the
     transuranic waste.                   extent of management’s estimates. The audit also disclosed
                                          that of the 26 sites with contact-handled TRU waste, the vast
     Source: WIPP website, http://
     www.wipp.carlsbad.nm.us/.
                                          majority would not benefit from the centralized capability.
                                          The audit determined that, although the Department
                                          contended that additional capabilities would inherently speed
                                          up the waste disposal process and save at least $100 million
                                          over the life of the contact-handled TRU waste program, it
                                          did not perform a complete analysis to demonstrate where
                                          and how efficiencies would be gained. The audit concluded
                                          that, without such an analysis, the Department risks investing
                                          time and resources in an unnecessary capability, ultimately
                                          delaying cleanup, increasing costs, and creating new health
                                          and safety concerns.

                                          The OIG recommended that the Assistant Secretary for
                                          Environmental Management direct the Carlsbad Field Office
                                          to: (1) conduct a cost and schedule analysis comparing the
                                          costs for establishing a centralized capability at WIPP versus
                                          new construction at small quantity sites and utilizing existing
                                          sites; and (2) postpone establishing a centralized capability
                                          pending the results of the analysis.

                                          The Assistant Secretary for Environmental Management
                                          agreed that a cost analysis should be performed and that
                                          activities associated with the capability should not proceed
                                          until the analysis is completed. (IG-0577)

                                          The Department Should Reevaluate the
                                          Construction Plans of a Remote Treatment
                                          Facility
                                          Currently, about 676 cubic meters of highly radioactive waste
                                          are stored at the INEEL reservation and additional waste

14
                    At Your Service

          continues to be generated by ongoing Department operations.
          Approximately half of the waste is the responsibility of the
          Office of Nuclear Energy (NE), and the other half is the
          responsibility of the Office of Environmental Management
          (EM). NE has plans to construct a Remote Treatment Facility
          to safely segregate, characterize, treat, and repackage the
          radioactive waste. An audit was initiated to determine
          whether the proposed facility was designed to safely treat all
          of the radioactive waste at the INEEL reservation.

          The audit found that the Department’s design plan for the
          Remote Treatment Facility did not provide the capability to
          treat all of the radioactive waste at the INEEL reservation.
          Although the plan dealt with waste currently stored and
economy

          generated by NE, it did not specifically address treating the
          radioactive waste managed by EM. As a consequence, the
          facility would not be able to meet all of the Department’s
          operational needs, nor would it be able to simultaneously
          process all the radioactive waste in accordance with
          established deadlines. Further implications could include
          fines and enforcement actions against the Department and,
          ultimately, construction of a second remote handling facility
          or transportation of waste offsite for treatment.

          The OIG recommended that: (1) senior management of NE
          and EM work together to design a facility that will permit the
          timely treatment of all INEEL radioactive waste; and (2) the
          Department should mandate a performance management
          system to evaluate the adequacy and completeness of
          contractor planning efforts.

          Department management agreed with the recommendations.
          While yet to be reviewed or approved, management informed
          the OIG that it had updated a number of relevant planning
          documents, including the conceptual design plans. Further,
          management believed that the outcome of an independent
          review should resolve many of the concerns raised in the OIG
          audit. (IG-0573)

          Subjects Sentenced for Clean Water Act Violation
          A joint investigation by the OIG, as part of the East
          Tennessee Environmental Crimes Task Force, determined
          that a vendor to a Department subcontractor illegally




                                                                      15
                                                   At Your Service

                                            discharged hazardous waste into a drainage ditch which
                                            emptied into the Little Pigeon River located in Sevierville,
                                            Tennessee.

                                            The corporation and its president entered guilty pleas to one-
                                            count violations of the Clean Water Act, Title 33, U.S.C.
                                            Section 1251. Pursuant to a plea agreement, the corporation
                                            was required to pay $200,000 in restitution and a special
                                            assessment of $125. The president was required to pay a fine
      Did you know?                         of $50,000 and assessed a $25 special assessment fee. Also,
                                            as a result of the investigation, the corporation spent
      The Federal Government’s              $384,500 in process changes and engineering costs to comply
      investment in IT is estimated to be
      $59 billion for 2004, up from the
                                            with environmental regulations. (I01OR002)
      2003 budget request of
      $53 billion. This increase is due
      to: better reporting, which has
                                            O Information Technology Management
      captured $2 billion in IT spending
      not previously reported; and new      Effective information technology (IT) management is
      spending needed to support            essential to the Department’s performance of its multifaceted
      homeland security and the war on      mission. While the Department has taken a number of
      terrorism.
                                            actions designed to improve the overall management of IT
      Source: FY 2004 Analytical            resources, additional improvements in this critical area are
      Perspectives, Budget of the U.S.      still needed. OIG reviews completed during this reporting
      Government.                           period provided recommendations on ways in which the
                                            Department could enhance the performance of IT activities.

                                            Improvements Needed in the Information System
                                            Development Practices at Bonneville and Western
                                            Area Power Administrations
                                            The Department of Energy’s Power Marketing
                                            Administrations are responsible for marketing, selling, and
                                            transmitting electric power produced largely at various
                                            Federal dams to wholesale customers throughout the United
                                            States. To accomplish their missions, these organizations
                                            operate high-voltage energy transmission lines that may cross
                                            numerous States and are supported by a complex and critical
                                            information technology infrastructure. This infrastructure
                                            includes information systems to manage key business
                                            operations such as power generation, power and transmission
Bonneville Power Administration high-       billing, and power grid maintenance activities.
voltage energy transmission towers and      The OIG initiated an audit to assess the Bonneville Power
power lines.                                Administration (Bonneville) and Western Area Power
                                            Administration (Western) information system development
                                            activities.


 16
                                           At Your Service

                                 The audit determined that Bonneville and Western
Did you know?                    information system development activities were not always
                                 consistent with Federal requirements or guidance.
Western Area Power
Administration (Western) owns
                                 Specifically, the OIG found significant problems with 9 of the
and operates the third largest   11 major projects included in the review. For example:
high-voltage transmission        (1) key planning activities such as cost-benefit analyses had
system in the Nation.            not been performed for eight of the projects; (2) evaluations
Western has nearly 17,000
miles of high-voltage
                                 of suitability of potential software solutions were often
transmission lines spanning      inadequate or had not been performed; (3) many projects were
most of the western half of      not adequately monitored and controlled by the Chief
the U.S.                         Information Officers (CIOs) throughout their lifecycle, and
                                 project baselines and plans were not revisited in light of scope
Source: Western Area Power
Annual Performance Plan,         changes or delays; and (4) the Department had not conducted
http://www.wapa.gov/.            reengineering studies before beginning development for 6 of
                                 the 11 projects reviewed. In addition, the audit disclosed that
                                 Bonneville and Western did not consistently include all
                                 relevant project costs when accounting for development
                                 efforts.

                                 The OIG recommended that Bonneville and Western
                                 strengthen controls over development activities and require
                                 that all projects be coordinated and monitored by the
                                 respective CIOs. Western and Bonneville management
                                 agreed with the OIG recommendations and stated that they
                                 had taken or initiated corrective action. (IG-0586)

                                 Business Management Information System’s
                                 Planning and Development Needs Improvement
                                 The OIG initiated an audit to determine whether the
                                 development of the Business Management Information
                                 System (BMIS) satisfied Federal and Department systems
                                 development requirements and was aligned with the
                                 Department’s Corporate Systems Information Architecture.

                                 The audit found that BMIS did not satisfy key Federal
                                 requirements and was not aligned with the Department’s
                                 Corporate Information Technology Architecture.
                                 Specifically, program offices were developing separate
                                 systems that were not capable of full integration with other
                                 business systems and that did not take full advantage of the
                                 existing core accounting system. Also, BMIS did not
                                 incorporate all corporate-level development efforts and, as
                                 noted in systems planning documentation, did not: (1) link
                                 performance and financial data, an element needed to satisfy


                                                                                               17
                                           At Your Service

                                    Federal financial system requirements; and (2) replace certain
                                    inefficient program and site-level financial management and
                                    managerial cost information systems.

                                    The OIG recommended that the Director, Management,
                                    Budget and Evaluation/Chief Financial Officer, in
                                    conjunction with the CIO: (1) finalize and implement a
                                    master plan, strategy, and/or program enterprise architecture
                                    relating to corporate level business information system
                                    development efforts that includes an evaluation of capabilities
                                    to meet requirements and other functionality such as
                                    procurement, budget and performance measurement; and
                                    (2) establish specific, quantifiable, and realistic performance
                                    measures and goals to be applied immediately and included in
                                    the Department’s Annual Performance Plan to guide the
                                    BMIS development effort.

                                    Department management agreed with these recommendations
                                    and expressed its confidence that its recent initiatives, when
                                    complete, should satisfy the audit recommendations.
                                    (IG-0572)

     Did you know?                  O National Security
     National Nuclear Security
     Activities Net Costs in FY
                                    The Department’s focus on security has substantially
     2002 were $6.8 billion.        increased in light of September 11 and the continuing threat
                                    posed by terrorist organizations. The Department continues
                                    to make progress in strengthening its security. OIG reviews
     Source: Department of Energy
                                    continue to demonstrate that additional controls are needed.
     FY 2002 Performance and
     Accountability Report.         Specifically, OIG reports identified the following weaknesses
                                    in this area.

                                    Two National Laboratories Have Not Adequately
                                    Controlled Unclassified Visits and Assignments
                                    by Foreign Nationals
                                    Each year, the Department’s national laboratories host
                                    thousands of visitors and assignees from foreign countries.
                                    The Department and its international partners benefit from the
                                    exchange of information that results from the visits and
                                    assignments because they foster open communication,
                                    stimulate ideas, and enhance research. Along with the
                                    benefits, however, foreign visits and the resulting exchange of
                                    information raise potential national security risks. The OIG


18
                        At Your Service

             conducted an audit to determine whether controls over foreign
             visits and assignments at two selected national laboratories
             were adequate.

             The audit determined that at the selected facilities, the
             Department had not adequately controlled unclassified visits
             and assignments by foreign nationals. The audit showed that
             the laboratories, one managed by the Office of Science and
             the other by NNSA, permitted certain foreign nationals to
             access facilities without ensuring that they had been properly
             admitted or authorized to remain in the United States. In
             many cases, the Science-managed laboratory also granted
             foreign visitors access before completion of national security
efficiency

             background checks or consultations with counterintelligence.
             Additionally, neither laboratory reported sufficient
             information to enable the Department to properly track the
             visitors and assignees.

             The OIG recommended a series of actions designed to
             strengthen management practices for controlling unclassified
             visits and assignments by foreign nationals. The Deputy
             Secretary agreed with the recommendations and took
             immediate corrective action by issuing interim guidance to
             strengthen the Unclassified Foreign Visits and Assignments
             Program at Department sites. (IG-0579)

             Actions Taken in Response to Missing Hazardous
             Waste Containing Cyanide Raise Security and
             Safety Concerns
             The OIG received information that a container of hazardous
             waste containing cyanide listed on a manifest had disappeared
             from a shipment of hazardous waste that originated from a
             Department facility. The OIG initiated an inspection to
             determine whether: (1) the apparent disappearance of the
             waste container was appropriately reported to the Department
             by contractor officials; (2) appropriate follow-up actions were
             taken; and (3) the handling of this incident had broader
             implications for the Department’s security.

             At this time, it is uncertain whether the hazardous waste
             containing cyanide is actually missing or, instead, inventory
             control errors occurred. The OIG concluded, however, that
             the Department needs to heighten awareness of: (1) security
             and safety issues associated with hazardous waste materials


                                                                              19
                            At Your Service

                     that could be used as weapons of mass destruction; and
                     (2) the importance of submitting required reports regarding
                     incidents involving such materials so that appropriate follow-
                     up actions may be taken. The OIG also identified specific
                     concerns with security and the inventory resolution process
                     at an offsite waste disposal facility that processes hazardous
                     waste for the Department location involved in this incident.

                     The OIG recommended that Department management:
                     (1) enhance awareness among site Federal and contractor
     effectiveness
                     personnel regarding potential terrorist interest in materials
                     that could be used as weapons of mass destruction and how
                     incidents involving such materials should be handled;
                     (2) strengthen controls over the hazardous waste disposition
                     process at the location in question; and (3) enhance the
                     security afforded Department hazardous waste materials such
                     as waste containing cyanide. The cognizant Department
                     organization agreed with our findings and recommendations
                     and has identified appropriate corrective actions. In addition,
                     because of the possible broader implications for Department
                     security based on the lessons learned from this inspection, the
                     OIG suggested to senior Department officials that they
                     consider whether Departmentwide actions are warranted.
                     (IG-0592)

                     Improvement Necessary in Personnel Security
                     Clearances and Badge Access Controls at Selected
                     Field Locations
                     The Department uses a formal process of security clearances
                     and security badges to control access at its sites and facilities.
                     The badges indicate whether the individual possesses a
                     security clearance and whether access to agency facilities is
                     permitted. The Department maintains a Central Personnel
                     Clearance Index (CPCI) and site-level information systems
                     to track clearance and badge information.

                     In March 2002, the OIG issued an audit report on Personnel
                     Security Clearances and Badge Access Controls at
                     Department Headquarters (IG-0548). The audit disclosed
                     that in many circumstances the Department had either not
                     terminated former Federal and contractor employees’
                     clearances or had not recovered their badges. The OIG




20
                   At Your Service

          conducted the current audit to determine whether the
          Department’s field offices were recovering unneeded security
          badges and terminating unneeded clearances.

          The audit found that at three of four reviewed field locations
          only minor discrepancies existed regarding the issue of badge
          recovery. These three locations consisted of the Savannah
          River Site, Sandia National Laboratories, and LANL. The
          audit found a significant number of discrepancies, however, at
          Oak Ridge, where 26 of 309 records sampled indicated that
          former workers retained badges. Three of the badges in
          question could have allowed the holders access to restricted
          areas or classified information. At the time of the OIG’s
economy

          review, the Department could not account for these badges.

          Additionally, the OIG determined that with regard to the
          maintenance of unnecessary clearances, at Savannah River,
          34 of 177 former employees improperly retained clearances.
          Similarly, at Sandia, 14 of 108 former workers
          inappropriately maintained active clearances, and at Oak
          Ridge, 15 of 229 individuals improperly held active
          clearances. In contrast, clearance termination processes
          appeared to be effective at LANL, where only 2 of 345
          former workers maintained active clearance status.

          The audit concluded that current processes failed to ensure
          that contractors properly implemented effective controls over
          badge recovery and clearance cancellation. Failure to
          promptly revoke and recover badges and terminate unneeded
          clearances increased the risks associated with unauthorized
          access to facilities, property, and classified information.

          The OIG recommended several specific actions to strengthen
          Departmental control over badge recovery and clearance
          termination. Department management generally agreed with
          the recommendations and planned to take corrective actions.
          (IG-0582)

          Improvements Needed in the Process for
          Implementing Corrective Actions Resulting From
          Force-on-Force Performance Tests
          The OIG conducted an inspection to determine if corrective
          actions were taken to address findings from force-on-force
          exercises conducted by the Office of Independent Oversight

                                                                       21
                         At Your Service

                  and Performance Assurance in 2000 at the Pantex Plant
                  (Pantex) and LANL’s Technical Area 18. These exercises
                  involved hypothetical threat scenarios and personnel acting as
                  adversaries to test the overall effectiveness of site safeguards
                  and security. The exercises resulted in one finding (an issue
                  requiring corrective action) at Pantex, which was closed, and
                  six findings at LANL, which were open at the time of the
                  inspection. The OIG determined that the process of
                  documenting activities associated with corrective action plan
                  milestones at LANL could be improved. The OIG also
                  determined that Pantex supervisors were unable to perform
                  complete checks to ensure that Security Police Officers
                  (SPOs) had all required equipment before going on patrol.
     efficiency

                  The OIG recommended that completion of corrective action
                  plan milestones for force-on-force findings be adequately
                  documented and that internal policies and procedures at
                  Pantex be strengthened to ensure that complete checks of
                  SPOs are performed. Department management concurred
                  with the recommendations and initiated corrective actions.
                  (IG-0585)

                  Inspection Identifies Weaknesses in Los Alamos
                  National Laboratory’s Safeguards and Security
                  Survey Process

                  The OIG received a complaint that the Department’s 2001
                  Safeguards and Security Survey of LANL had been
                  compromised. Specifically, the complaint alleged that:
                  (1) the survey team was instructed to only document
                  observations and not findings; (2) the survey period was
                  shortened from 2 weeks to 4 days; (3) the survey scope was
                  reduced; and (4) the survey topical area ratings appeared to be
                  manipulated. The OIG conducted an inspection to determine
                  if the 2001 Safeguards and Security Survey of LANL was
                  compromised as alleged.

                  In general, the inspection did not substantiate these
                  allegations. However, the inspection did find that:
                  (1) concerns regarding the methodology supporting a 2001
                  LANL force-on-force exercise had not been included in the
                  survey report; and (2) neither a formal “murder board” nor a
                  “working closeout” meeting had been held as part of LANL’s



22
                          At Your Service

                survey effort. The inspection concluded that had such
                meetings taken place, there is a high likelihood that the force-
                on-force matter would have surfaced and would have been
                appropriately resolved and addressed in the final survey
                report.

                The OIG recommended that NNSA management: (1) review
                the outcome of the force-on-force exercise referenced in the
                2001 Safeguards and Security Survey of Los Alamos and
                ensure that concerns relating to the protection strategy have
effectiveness
                been corrected; and (2) ensure that all future security survey
                results are fully discussed through the use of “murder boards”
                and “working closeouts” as part of the survey process.

                NNSA management agreed with the OIG recommendations,
                but stated that the OIG was probably unaware that a classified
                report on the results of the force-on-force exercise was
                prepared; that the results of the exercise were, in fact,
                integrated into the overall survey; and all opinions from
                exercise observers were considered for the survey report.
                However, Department officials who observed the 2001 force-
                on-force exercise informed the OIG that the survey members
                had not approached them to discuss and resolve their
                concerns. Further, the OIG reviewed the classified report
                referenced by NNSA management. It is the OIG’s view that
                the report does not address and resolve the force-on-force
                concerns raised by the observers. (S02IS013)

                Individual Enters Guilty Plea in Connection with
                Theft and Forgery of Department of Energy
                Security Badges

                A joint investigation with the FBI determined that an
                individual not associated with the Department or its
                contractors stole and then forged Department security badges
                to facilitate the cashing of fraudulent checks. The individual
                used a computer to produce four fraudulent Department
                security badges after having stolen an authentic badge from a
                contractor employee. The individual pleaded guilty to a
                three-count violation of Title 18 U.S.C. Section 1028(a)(6),
                Fraud and Related Activity in Connection with Identification
                Documents, and a one-count violation of Title 18 U.S.C.
                Section 471, Manufacturing Counterfeit Securities of the
                United States. Sentencing is pending. (I02AL013)


                                                                              23
                                                 At Your Service

                                          O Performance Management
                                          The President’s Fiscal Year 2002 Management Agenda
                                          identified Budget and Performance Integration as a
                                          Governmentwide initiative for FY 2002. During this period,
                                          the OIG issued the following reports concerning performance
                                          management issues.

                                          Report on the Department of Energy’s
                                          Consolidated Financial Statements
     Did you know?
                                          This is the fourth consecutive year that the Department
     A record number of major Federal     received an unqualified (clean) audit opinion on its
     departments and agencies passed      consolidated financial statements. The OIG conducted the
     their annual audit. Twenty-one of
                                          audit pursuant to the Government Management and Reform
     24 major departments and
     agencies earned auditors’ approval   Act of 1994 (Act). The objective of the Act is to improve
     for FY 2002—up from 18 in FY         financial practices in the Federal Government by issuing
     2001—and 2 agencies met a new        audited financial statements for each agency. The preparation
     Governmentwide standard for
                                          of the statements is the responsibility of the Department, and
     timeliness of reliable financial
     information 2 years early.
                                          the OIG is responsible for the audit.

     Source: OMB Press Release,           The OIG contracted with the accounting firm of KPMG LLP
     February 6, 2003                     to conduct the audit. KPMG concluded that the consolidated
                                          financial statements present fairly, in all material respects, the
                                          Department’s financial position as of September 30, 2002,
                                          and its net costs, changes in net position, budgetary resources,
                                          reconciliation of net costs to budgetary obligations, and
                                          custodial activities for the year then ended. The OIG agreed
                                          with this opinion.

                                          As part of KPMG’s determination, the auditors considered
                                          internal controls over financial reporting and tested the
                                          Department’s compliance with certain provisions of
                                          applicable laws and regulations that could have a direct and
                                          material effect on the consolidated financial statements.
                                          While the audit opinion was unqualified, the examination
                                          revealed that two reportable conditions existed in the
                                          Department’s system of internal controls: (1) as in previous
                                          years, the Department had certain network vulnerabilities and
                                          general access control weaknesses that could affect
                                          unclassified information system security; and (2) while the
                                          Department has made progress in its performance




24
                                            At Your Service

                                 measurement reporting, more remains to be done to satisfy
                                 Office of Management and Budget requirements. It should be
                                 noted that these conditions represent findings that were also
                                 stated in last year’s audit report.

                                 To ensure the quality of the audit, the OIG approved the
                                 scope of KPMG’s assignment and monitored its work. The
                                 OIG also reviewed the audit report and related work papers to
                                 ensure compliance with applicable auditing standards.

                                 Department management generally agreed with the audit
                                 findings and initiated or agreed to initiate specific corrective
                                 actions. The OIG transmittal memorandum to the Secretary
                                 and the KPMG audit report are included in the Department’s
                                 Fiscal Year 2002 Performance and Accountability Report,
                                 DOE/ME-0014. (IG-FS-03-01)

                                 O Stockpile Stewardship
Did you know?                    In 1993, the President and Congress reaffirmed the
                                 moratorium on underground nuclear testing and directed that
The NNSA spends more than
                                 a science-based Stockpile Stewardship Program be developed
$5.5 billion per year to
maintain the safety and          to maintain the Nation’s stockpile of nuclear weapons. The
reliability of the Nation’s      Department’s plan for stockpile stewardship is one of the
nuclear weapons through the      most complex, scientifically technical programs ever
Stockpile Stewardship Program.
                                 undertaken. The program consists of surveillance,
Source: Major Performance
                                 experimentation, computation, and production. Its focus is to
and Accountability Challenges,   maintain “high confidence” in the safety and reliability of the
GAO-03-100-Department of         stockpile without nuclear testing. Responsibility for stockpile
Energy Challenges, www/          stewardship rests with the NNSA. OIG reviews continue to
GAO.gov.
                                 disclose problems the Department is having with meeting its
                                 critical stockpile stewardship mission. Recent examples
                                 include:

                                 Scope, Schedule, and Cost Problems in W80
                                 Refurbishment
                                 The Department’s national security mission, as managed by
                                 the NNSA, includes extending the life of the existing
                                 weapons in the Nation’s nuclear stockpile. In this regard, the
                                 W80 is one of the weapon types currently undergoing
                                 refurbishment. From design to final production, the project
                                 will involve three design laboratories and four production
                                 plants, and is currently estimated to cost over $1 billion.



                                                                                                    25
                      At Your Service

               As noted in a number of earlier reports by the OIG and
               others, the NNSA has faced significant challenges in
               managing and revitalizing the Nation’s nuclear stockpile.
               The U.S. General Accounting Office has also described
               problems with stockpile stewardship efforts, including a 2001
               finding that a key milestone for refurbishment of the W87,
               another weapon system, had been delayed 2 years and the
               project experienced cost increases of $300 million. In light
               of these and other reports, the OIG conducted an audit to
               determine whether, under NNSA’s current operating
               approach, the W80 will be refurbished within established
               scope, schedule, and cost parameters.

               The audit disclosed that it is not likely that NNSA’s W80
     economy

               refurbishment project will meet scope, schedule, and cost
               milestones established in the W80 NNSA Project Plan.
               Specifically, Lawrence Livermore and Sandia National
               Laboratories have cancelled or delayed testing, weapon
               component completion, and support facility renovation
               activities, without notifying NNSA and updating project
               plans. Further, key management controls to oversee the
               refurbishment project were not in place or operating as
               intended.

               The OIG recommended that NNSA: (1) establish complete
               and accurate project plans; (2) implement change controls;
               (3) estimate and track costs at the weapon and component
               levels; and (4) ensure that peer reviews are performed as
               scheduled. Management agreed with the recommendations
               and stated that corrective actions have already been initiated.
               (IG-0590)

               Accounting for Significant Finding Investigations
               Needs Improvement
               Since 1992, the Department and the NNSA have carried out
               an analytically based Stockpile Surveillance Program to help
               ensure the safety, reliability, and performance of the nuclear
               weapons in the Nation’s stockpile. On a continuing basis,
               NNSA randomly selects weapons from the active inventory
               for disassembly, inspection, and testing for defects and
               problems. Test results serve, in part, as a basis for certifying
               to the President that there is no need to resume underground
               nuclear testing.



26
                       At Your Service

             When the surveillance program identifies a suspected
             problem, NNSA must determine if further testing and
             analysis is warranted. If so, a Significant Finding
             Investigation (SFI) is opened. The OIG conducted an audit to
             determine whether NNSA took action to resolve
             recommendations resulting from SFIs.

             The OIG found that of the 100 recommendations issued
             during calendar years 2000 and 2001, NNSA could only
             account for the resolution of the 26 most serious. The audit
             disclosed that the status of the other 74 recommendations was
             not tracked. The OIG analysis showed that no action had
             been taken on 23 recommendations and that most were not
efficiency

             assigned to any specific individual or organization for follow-
             up. Furthermore, NNSA did not have controls in place to
             ensure that such assignments were made and that follow-up
             actions were completed. The audit concluded that, unless all
             recommendations are tracked and resolved, NNSA risks
             allowing certain weapons-related problems to go unresolved,
             and issues that are now considered minor have the potential to
             grow more serious with time.

             The OIG recommended that the Acting Administrator,
             NNSA: (1) ensure that its Development and Production
             Manual and related policies and procedures are modified to
             address the resolution of all SFI recommendations;
             (2) complete the development and implementation of a
             system to formally document and track the resolution of SFI
             recommendations; (3) assign responsibility for resolution of
             all SFI recommendations, including previously unresolved
             recommendations; and (4) establish performance measures to
             resolve SFI recommendations as part of the overall
             performance goals on maintaining stockpile confidence.

             NNSA agreed with the recommendations and is working to
             correct the deficiencies noted in the audit. (IG-0575)

             OIG Identifies Potential Alternatives for Meeting
             Future Beryllium Metal Supply Requirements
             Beryllium metal, a non-radioactive metal, is essential for
             many departmental applications and is primarily used to
             produce parts for nuclear weapons. The NNSA maintains




                                                                          27
                            At Your Service

                     the capability to manufacture beryllium metal components
                     both for nuclear weapons and for experiments required to
                     certify the reliability of the nuclear weapons stockpile.
                     Because domestic production of beryllium metal ceased in
                     2000, the only available source for this material is the
                     National Defense Stockpile (NDS).

                     NNSA has estimated that, over the next three decades, it
                     would need about 90 tons of beryllium metal to fulfill
                     mission requirements. This is 40 tons more than is currently
     effectiveness
                     available to the Department for purchase from NDS.
                     NNSA’s preferred alternative to deal with the shortfall is to
                     obtain more material from the NDS. Since the Department of
                     Defense also has national security requirements for the same
                     material, it is unclear whether obtaining more beryllium metal
                     from NDS is a viable option.

                     The OIG conducted an audit to determine whether obtaining
                     additional material in this manner was the most efficient and
                     effective method for meeting future requirements for
                     beryllium metal.

                     The audit disclosed that NNSA had not fully considered
                     alternative approaches for meeting its beryllium
                     requirements. We noted at least two options that had not
                     previously been analyzed, each involving process changes
                     that could help NNSA reduce its overall need for beryllium
                     metal. The processes identified are the “near net shaping”
                     manufacturing process and recycling. Use of the near net
                     shaping manufacturing process would allow NNSA to use
                     significantly less beryllium metal to manufacture parts. This
                     process involves beryllium powder being sized to a shape that
                     is closer to that of final parts than is possible by machining.
                     At the OIG’s request, NNSA conducted a preliminary
                     analysis of the use of near net shaping for its manufacturing
                     process and concluded that the process had the potential to
                     allow NNSA to meet its beryllium requirements with less
                     than the supplies currently available to the Department in
                     NDS.

                     The audit also identified a second approach to conserve
                     beryllium; namely, reestablishment of the Department’s
                     recycling ability. Although costs associated with purchasing
                     or manufacturing new recycling equipment would need to be
                     considered, NNSA has estimated that recycling could allow it


28
                                                        At Your Service
                                             to reuse up to 98 percent of beryllium scrap metal. The audit
                                             concluded that adoption of such activities has the potential to
                                             save NNSA as much as $42 million dollars.

                                             The OIG recommended that the NNSA Deputy Administrator
                                             for Defense Programs: (1) formally evaluate process
                                             alternatives and recycling as methods for reducing its overall
                                             need for beryllium metal; and (2) implement the most cost-
                                             effective means for meeting mission-related requirements.
                                             Department management generally agreed with the OIG’s
                                             recommendations that NNSA evaluate alternatives to meet its
                                             beryllium metal requirements. (IG-0583)

                                             O Worker/Community Safety
                                             The Department performs a wide variety of work to carry out
                                             its many missions. With thousands of employees and the local
                                             communities to consider, safety is a key concern to the
                                             Department. Other agencies and/or groups, such as State
                                             regulators, the Environmental Protection Agency, the Defense
                                             Nuclear Facilities Safety Board, and the Office of
                                             Independent Oversight and Performance Assurance, also help
                                             the Department stay focused on the safety of its operations
                                             and facilities. OIG reports have identified problems with
                                             safety operations or plans at several of the Department’s
                                             facilities.

                                             Nuclear Safety Program at the Department’s
                                             Ashtabula Site Needs Improvement

                                             The Ashtabula Site is owned by a private company, the RMI
                                             Titanium Company (RMI), and is comprised of two facilities,
                                             the Extrusion Plant and the Metals Plant. The OIG
                                             discovered during an earlier inspection that there were
                                             radioactive processing activities occurring at the Metals Plant
                                             without a State or Federal nuclear license and that RMI
                                             utilized Department equipment to conduct these radioactive
                                             processing activities without the Department’s permission.

                                             The OIG conducted this inspection to determine: (1) in the
Ashtabula– Southeast corner of main plant    absence of a nuclear license covering the Metals Plant, if the
complex, Environmental Management Project,   radiological work was conducted in accordance with
Ashtabula, Ohio                              Department nuclear safety procedures; and (2) whether the




                                                                                                               29
                                                         At Your Service

                                                  RMI radioactive processing activities conducted with
                                                  Department equipment occurred without a proper license and
                                                  without proper nuclear safety procedures in place.

                                                  The inspection found that radiological work at the Metals
                                                  Plant and commercial work with Department equipment were
                                                  not covered by either a license or Department nuclear safety
                                                  procedures. Because RMI owns the Ashtabula Site, it was
                                                  unclear whether a nuclear license or Department regulations
                                                  should have been in place.

                                                  The OIG recommended that the Department’s: (1) Office
                                                  of the General Counsel determine the applicability of
Ashtabula—Overall view of the main plant          Department regulations at the Ashtabula Site; (2) Office of
Extrusion Complex Remediation, Ashtabula, Ohio.   Price-Anderson Enforcement determine whether Department
                                                  regulations have been violated at the site; and (3) Ohio Field
                                                  Office address issues relating to compliance with nuclear
                                                  safety regulations and the use of Department equipment to
                                                  perform non-Department radiological work.

                                                  The Office of the General Counsel determined that
                                                  Department nuclear safety requirements did not apply to
                                                  contractual activities at the Ashtabula Site and that these
                                                  activities are under the jurisdiction of the Ohio Department
                                                  of Health. Based on this determination, the Office of Price-
                                                  Anderson Enforcement concluded that it would be at variance
                                                  with the Department’s Price-Anderson regulations to assert
                                                  Price-Anderson Enforcement jurisdiction at the Metals Plant.
                                                  The Ohio Field Office intends to recover all related costs that
                                                  were incurred by RMI while using Department property to
                                                  perform commercial work and is working with the State of
                                                  Ohio to ensure nuclear safety compliance at Ashtabula.
                                                  (IG-0576)

                                                  The Department’s Explosives Safety Program
                                                  Needs Improvement
                                                  The OIG conducted an inspection at the Department’s
                                                  Nevada Operations Office (Nevada) and Oak Ridge
                                                  Operations Office (Oak Ridge) to determine if explosive
                                                  materials were being stored safely and in accordance with
                                                  applicable Department requirements.




     30
                    At Your Service

          The inspection found that: (1) programs designed to review
          the shelf-life of explosive materials have not been fully
          implemented at Nevada and Oak Ridge; (2) the Department
          had not incorporated the “DOE Explosives Safety Manual”
          into one contract at Nevada and two contracts at Oak Ridge;
          (3) combustible material was inappropriately stored in
          explosives storage magazines at Nevada; and (4) lightning
          protection tests on explosives storage magazines at Nevada
          were not being consistently completed by all contractors.

          The OIG recommended a series of actions designed to
          improve explosives safety at Nevada and Oak Ridge.
          Department management agreed with the recommendations
economy

          and stated that they are taking action to strengthen explosive
          safety. (IG-0578)

          Significant Delays Found in National Nuclear
          Security Administration’s Nuclear Explosive
          Safety Study Program
          The NNSA is responsible for designing, testing, and
          maintaining the Nation’s nuclear weapons stockpile. Many
          activities related to this mission are performed at the
          Department’s contractor-operated Pantex Plant near Amarillo,
          Texas. Departmental policy requires that an approved
          Nuclear Explosive Safety (NES) study be performed before
          any nuclear explosive operation is conducted. NES studies
          ensure protection of the public, employees, facilities, and the
          environment.

          The OIG conducted an audit to determine whether the
          Department was conducting scheduled safety reviews and
          evaluations of nuclear explosive operations.

          The audit disclosed that comprehensive NES studies had been
          delayed for six of the nine nuclear weapon types currently
          active in the Nation’s stockpile. Under the Department’s
          current plan, the actual time between comprehensive NES
          studies will range from 11 to 16 years, despite the standard to
          conduct a comprehensive safety study at least once every 10
          years. To NNSA’s credit, NES studies have since been
          completed for two of the active weapon types; however, the
          studies did not cover all operations.




                                                                        31
                         At Your Service

                  The studies were overdue because the Department: (1) had
                  not fully implemented the required safety initiatives; (2) had
                  not completed the safety basis documents, integral to the NES
                  review process; (3) experienced delays in obtaining necessary
                  information from supporting laboratories; and (4) experienced
                  a shortage of technical personnel familiar with the nuclear
                  explosive systems.

                  The OIG made several recommendations that would assist
                  the Deputy Administrator for Defense Programs to complete
                  all NES studies as expeditiously as possible.

                  NNSA management officials generally agreed with the
     efficiency

                  recommendations and advised that a number of actions had
                  been initiated to expedite the completion of NES studies.
                  Management also noted that the design laboratories continue
                  to certify all weapon systems as meeting their military
                  characteristics. (IG-0581)

                  Radiological Incident Reporting Inadequate and
                  Incomplete
                  On February 15, 2001, an unanticipated airborne release of
                  Plutonium-238 (Pu-238) occurred from a glovebox at
                  LANL’s Technical Area 55 Site. The incident resulted in the
                  contamination of workers. As required, LANL officials
                  prepared an Occurrence Report outlining the circumstances of
                  the incident. The NNSA referred to the OIG a complaint that
                  questioned the thoroughness and competence of the incident
                  evaluation by LANL and the failure to consider procedural
                  violations that caused the incident. As a result, the OIG
                  conducted an inspection to evaluate the facts and
                  circumstances surrounding the reporting of the incident.

                  The inspection concluded that LANL glovebox safety
                  operations and procedures at the time of the release were not
                  performed in accordance with NNSA-approved policies for
                  the handling of Pu-238. Additionally, the inspection found
                  that the Occurrence Report was inaccurate and incomplete.
                  The information developed during this review, including the
                  confirmation that LANL personnel were contaminated due to
                  exposure to Pu-238, suggests significant safety shortcomings




32
                           At Your Service

                at the time at LANL. The OIG is concerned, as well, by the
                fact that the Occurrence Report did not identify the root cause
                of the release and the contamination of the workers.

                The OIG recommended that responsible NNSA officials ensure
                that: (1) all information surrounding the glovebox
                contamination incident is thoroughly reviewed; (2) LANL be
                directed to strengthen its internal controls to reduce or
                eliminate the possibilities of inadvertent contamination; and
effectiveness
                (3) LANL be directed to place greater emphasis on occurrence
                reporting to ensure adherence to reporting requirements.
                Department management agreed with the recommendations
                and initiated corrective actions that will be completed by
                December 20, 2003. (IG-0591)




                                                                              33
                                                At Your Service

                                         Congressional Responses



                                         D
     Other Significant Accomplishments


                                                      uring the reporting period, the Inspector General
                                         (IG) testified at two congressional hearings. On February 26,
                                         2003, the IG testified before the House Committee on Energy
                                         and Commerce, Subcommittee on Oversight and
                                         Investigations, on procurement and property mismanagement
                                         and theft at LANL. Additionally, on March 20, 2003, the IG
                                         testified before the House Committee on Government Reform
                                         at a hearing concerning the issue of the Department’s contract
                                         administration. The OIG also provided a total of 19 briefings
                                         to Members of Congress and their Committees or personal
                                         staffs, received 13 requests for information, and provided
                                         information or reports on 17 occasions.

                                         Costs Incurred and Claimed Audits
                                         The IG is required to periodically assess the reliability of the
                                         internal control structure used by Department contractors and
                                         the affected field element to assure that only allowable costs
                                         were claimed and reimbursed. Based on this assessment, the
                                         OIG must determine whether to sign the contractors’
                                         Statement of Costs Incurred and Claimed (SCIC). As part of
                                         these inquiries, the OIG also reviews the internal audit
                                         function of the contractors to determine the extent to which
                                         the OIG may rely upon the work they have performed. For
                                         the period October 1, 2002, through March 31, 2003, the OIG
                                         performed SCIC assessments for five contractors.

                                         Bechtel Nevada Corporation Under Department of Energy
                                         Contract No. DE-AC08-96NV11718, Report Number
                                         OAS-V-03-01, dated October 28, 2002.

                                         The OIG assessment disclosed conditions, including
                                         noncompliance with contract clauses and/or laws and
                                         regulations, in the internal control structure of Bechtel
                                         Nevada Corporation (Bechtel) in effect during FYs 1999
                                         through 2001. Specifically, Bechtel could not assure the
                                         Department received the full rebate for contract-related travel
                                         paid with corporate travel cards, did not follow the Federal
                                         Travel Regulations relating to foreign travel, and disposed of
                                         records supporting procurement card purchases. The OIG


34
                    At Your Service

          was also concerned about the quality of work on selected
          audits performed by the Internal Audit group. The review of
          six audits found that Internal Audit did not determine the cost
          allowability of foreign travel costs in four audits and did not
          expand samples or project questioned and unallowable costs
          identified during its FY 1999 allowable cost audit. Based on
          the review, the OIG is qualifying its opinion on the SCIC for
          FYs 1999 through 2001.

          Argonne National Laboratory Under Department of Energy
          Contract No. W-31-109-ENG-38, Report Number
          OAS-V-03-02, dated November 1, 2002 (covered FY 2001).
economy

          Battelle-Pacific Northwest National Laboratory Under
          Department of Energy Contract No. DE-AC06-76RL01830,
          OAS-V-03-03, dated November 5, 2002 (covered FY 2001).

          Midwest Research Institute Under Department of Energy
          Contract No. DE-AC36-99GO10337, OAS-V-03-04, dated
          December 19, 2002 (covered FYs 1998-2001).

          Westinghouse Savannah River Company Under Department
          of Energy Contract No. DE-AC09-96SR18500, OAS-V-03-05,
          dated February 28, 2003 (covered FY 2001).

          In the OIG’s opinion, changes to the internal control structure
          for these four contractors provided reasonable, but not
          absolute assurance, that costs claimed by the contractor and
          reimbursed by the Department were allowable. In addition,
          based on the OIG’s assessment of the internal auditors’
          qualifications, independence, and audit work and on tests of
          the work performed by the internal auditors, the OIG
          determined that the work of the internal auditors could be
          relied upon.

          Administrative Safeguards
          Subcontractor Employee Convicted and Sentenced for
          Accepting Kickbacks

          A joint investigation with the FBI, the Defense Criminal
          Investigative Service, and the Internal Revenue Service
          determined that a subcontractor employee at the INEEL




                                                                       35
                         At Your Service

                  inappropriately provided items of value to a prime contractor
                  employee in return for favorable treatment in the award of a
                  mobile office contract.

                  The subcontractor pleaded guilty to one-count indictments of
                  Title 18 U.S.C. Section 1341, Mail Fraud; and Title 41 U.S.C.
                  Sections 53 and 54, Anti-Kickback Act. The employee was
                  sentenced to 4 months’ incarceration, 4 months’ home
                  detention, and 3 years’ probation and was ordered to pay a
                  $20,000 fine, $45,000 in restitution, and a $200 assessment
                  fee. The Government also seized various items valued at
                  approximately $50,000 through criminal asset forfeiture.
                  During the previous reporting period, a second individual
     efficiency

                  involved in the scheme pleaded guilty, was sentenced to 2
                  years’ probation, and was ordered to pay a $7,500 fine and a
                  $25 assessment fee. (I01IF001)

                  Contractor Procurement Official Pleads Guilty to Bribery

                  An OIG joint investigation with the FBI determined that a
                  contractor procurement official inappropriately accepted cash
                  and other items of value from a laboratory vendor. The
                  investigation found that over a 2-year period the procurement
                  official worked with the vendor to inflate the cost of specialty
                  sensor parts; improperly purchased the parts with a
                  Government procurement card; ordered and paid for parts that
                  were never delivered; and arranged for the subcontractor to
                  fix, repair, and re-work parts at inflated prices. The
                  procurement official pleaded guilty to violating Title 18
                  U.S.C. Section 201(b)(2)(A), Bribery of Public Official.
                  Sentencing is pending. In addition, the procurement official
                  is no longer an employee of the contractor. (I01LL003)

                  DOE Supply Specialist Pleads Guilty to Receiving
                  Kickbacks

                  A joint investigation with the FBI determined that a
                  Department employee responsible for providing oversight of
                  carpet cleaning contractors received kickbacks from a carpet-
                  cleaning vendor. The employee, a General Supply Specialist,
                  also provided the vendor with competitor bid information. As
                  a result of the investigation, the employee pleaded guilty to
                  Title 18 U.S.C. Section 201(b)(2)(A), Bribery of Public
                  Official, and retired from Federal Service. Sentencing is
                  pending. (I01HQ006)


36
                          At Your Service

                Contractor Employee Pleads Guilty to Inappropriate Use of
                Government Sponsored Purchase Card

                An OIG investigation determined that a contractor employee
                at the Department’s WIPP misused a Government-sponsored
                procurement card to purchase personal items. The card was
                used for a down payment on an automobile and to purchase
                jewelry and groceries. The contractor employee, an assistant
                purchase card administrator, attempted to conceal these
                charges by altering the purchase card statements.
effectiveness
                The contractor employee pleaded guilty to one count of Title
                18 U.S.C. Section 287, False Claims, and is no longer
                employed by the contractor. The individual was sentenced to
                5 years’ probation and restitution of $13,883.19. (I02AL003)

                Department Contractor Implements Corrective Action in
                Purchase Card Program

                As previously reported, an OIG investigation resulted in the
                conviction and sentencing of an Oak Ridge National
                Laboratory (ORNL) contractor employee for using a
                Government purchase card to purchase non-business related
                consumer electronic products totaling $10,804.12.

                During the current reporting period, the OIG issued an
                Administrative Report to Management reporting the results of
                the investigation and making recommendations regarding
                ORNL’s purchase card program. Management informed the
                OIG that ORNL: (1) implemented a policy to conduct field
                audits of cardholder records and activity; (2) issued a notice
                to all credit card program participants concerning
                consequences of program noncompliance; and (3) updated
                procedures to require annual refresher training for all program
                participants. Management also plans to conduct an FY 2003
                audit to assess the effectiveness of the contractor’s corrective
                actions. (I01OR009)

                Subcontractor Employee Pleaded Guilty to Theft of Property

                A joint investigation by the OIG and FBI determined that
                over a 4-year period a former subcontractor employee at the
                INEEL stole about $10,000 worth of Government property.
                The stolen property, which included a computer, printer,
                carpet and various tools, has been recovered. As a result of


                                                                               37
                      At Your Service

               the investigation, the subcontractor terminated the subject’s
               employment. The individual pleaded guilty to a one-count
               violation of Title 18 U.S.C. 641, Theft of Government
               Property. Sentencing is pending. (I01IF004)

               Subcontractor Employee Pleads Guilty to Theft of
               Government-owned Platinum

               A joint investigation by the OIG and FBI determined that a
               former Department subcontractor employee stole
               Government-owned platinum from the INEEL. The
               individual sold the platinum to a precious metal company for
               $14,608. The subject pleaded guilty to a one-count felony
               violation of Theft of Government Property, Title 18 U.S.C.
     economy

               641, and was sentenced to 2 years’ probation, 100 hours of
               community service, restitution of $14,608, and a $100 special
               assessment fee. In addition, the subject’s employment was
               terminated. (I02IF005)

               Vendor Submits Fraudulent Bills Overcharging the
               Government for Training Costs

               An OIG investigation resulted in the debarment of the owner
               and an account representative of a Department approved
               vendor. The OIG determined that the vendor, responsible for
               providing training and education to Government and
               contractor employees, fraudulently charged the Government
               in excess of $500,000 for computer training. The vendor is
               no longer in business and its assets have been liquidated.
               One of the individuals had no reportable source of income
               and the other filed for bankruptcy. As a result, the U.S.
               Attorney’s Office for the District of Nevada declined criminal
               prosecution and opted not to pursue further civil prosecution
               in lieu of administrative action. (I98AL020)

               Washington State Chiropractor Pleads Guilty to Improperly
               Billing the Hanford Site Workers Compensation Program

               A joint OIG investigation with the Washington State
               Department of Labor and Industries (L&I) determined that a
               local chiropractor improperly billed the Department of
               Energy’s Hanford Site Contractor’s Workers Compensation
               Program and L&I by using his deceased father’s L&I medical
               provider number. The improper billing occurred over an



38
                       At Your Service

             8-month period of time. The investigation resulted in the
             subject pleading guilty in Benton County, Washington,
             Superior Court to “false statements or concealing
             information.” The subject was sentenced to 20 days’ partial
             confinement (work release); 30 days’ community service;
             restitution in the amount of $15,914.53; and fines totaling
             $747. (I03RL003)

             Department Safeguards and Security Employee Provides
             False Employment Information on Department Letterhead
             to Obtain Credit

             An OIG investigation determined that an Oakland
efficiency

             Operations Office employee provided false employment
             information on Department letterhead to a creditor. The
             employee submitted this false information to obtain a
             personal home loan in the amount of $117,000. A
             Department subcontractor employee also participated in the
             scheme. The U.S. Attorney’s Office for the Northern
             District of California declined prosecution in favor of
             administrative remedies.

             In response to an OIG Administrative Report to
             Management: (1) the Department employee was suspended
             without pay pending the outcome of a review of the
             individual’s security access authorization; and (2) the
             subcontractor employee’s security access authorization was
             revoked, resulting in the termination of the individual’s
             employment. (I02LL005)

             Former Contractor Employee Sentenced for Possession of
             Child Pornography on a Government Computer

             During the current reporting period, a former contractor
             employee was sentenced to 27 months in Federal prison
             and 3 years of supervised release for possessing child
             pornography while working at the Rocky Flats
             Environmental Technology Site’s Fire Department. The
             individual was also ordered to register as a sex offender.
             (I01TC020)




                                                                           39
                            At Your Service

                     Successful Outcomes
                     The OIG continues to look for opportunities to influence the
                     Department towards positive change and reduce the
                     potential for waste, fraud, and mismanagement. The
                     President’s Management Reform Agenda highlights the
                     need for Federal agencies to seek ways to measure their
                     success from a result-oriented perspective. The Department
                     has taken numerous actions, some of which are summarized
                     below, that reflect the positive impact of our reports.
     effectiveness

                     •   The OIG annually performs an audit to identify the most
                         significant Management Challenges facing the
                         Department. The Department recently initiated a
                         corporate approach for taking timely, coordinated, and
                         comprehensive action to address these Management
                         Challenges as well as those identified by the General
                         Accounting Office. A memorandum dated March 31,
                         2003, from the Department’s Chief of Staff to senior
                         Department managers shared the importance of taking
                         action to address not only the problem, but the
                         underlying causes that allow these challenges to persist.
                         The memorandum also established a mechanism to track
                         the corrective action plans and measure the effectiveness
                         of the actions taken. (IG-0580)

                     •   The Department and the Fernald Environmental Project,
                         Fluor Fernald, Inc. (Fernald), modified the Fernald
                         contract to require site closure in 2006, changed the
                         contract’s fee structure to emphasize schedule
                         acceleration rather than cost control, and lowered the
                         total project cost by over $300 million. Furthermore, the
                         Department changed the contract’s definition of site
                         closure to make it consistent with congressional intent.
                         (IG-0555)

                     •   The Secretary announced at the March 2003
                         International Atomic Energy Agency (IAEA) conference
                         on the Security of Radioactive Sources that the U.S. was
                         evaluating potential vulnerabilities in the control of
                         radioactive sources in order to strengthen the regulatory
                         infrastructure for accounting, tracking, and disposal of
                         such sources. (IG-0546)



40
                    At Your Service

          •   The Department agreed to retain an Oak Ridge
              capability for producing stable, non-radioactive isotopes.
              The Department had planned to dismantle the World
              War II era machines, called calutrons. However, the
              OIG audit report showed the importance of keeping the
              machines in a workable condition until another domestic
              source is created. (IG-0574)

          •   An OIG review raised concerns over the use of
              laboratory overhead accounts to fund R&D projects as
              well as general management concerns on the
              allowability of these project costs. As a result, the
              Secretary of Energy directed the NNSA Acting
              Administrator to establish a prioritization process to
economy

              ensure that only projects that support the national
              security mission are approved. (IG-0511)

          •   The Department completed an analysis of cost sharing at
              Ashtabula and concluded that there is support to pursue
              reasonable cost-sharing provisions in future contracts
              relating to Department and non-DOE operations. Over
              the course of the remaining clean-up effort at the site,
              the cost-sharing provision could save the Department
              and ultimately the taxpayer about $34 million.
              (IG-0558)

          •   The Department took positive action to ensure that
              foreign visitors are properly cleared before arriving at a
              Department site. Procedures have been established that
              require all foreign visitors to have current documentation
              and be properly reported and that proper checks are
              completed before site access is allowed. (IG-0579)

          •   The OIG reported that the planned waste
              characterization capability at the Department’s WIPP is
              unlikely to expedite the removal of waste or save costs
              to the extent of management’s estimates. The
              Department is currently performing further cost benefit
              analyses of this program to verify that this is the most
              cost effective and efficient mechanism by which to aid
              small quantity generators in the characterization and
              confirmation of their waste. (IG-0577)




                                                                         41
                                              At Your Service

                                       •   The RMI Titanium Company, an operating contractor,
                                           was using Department equipment to conduct non-
                                           Departmental activities. The Department’s contracting
                                           officer formally directed RMI to stop any unauthorized
                                           use and receive prior written consent from an
                                           authorized Department representative for any future use
                                           of Government equipment outside the scope of the
                                           Department’s contract. (IG-0576)

                                       •   The Department’s Biosafety Working Group developed
                                           a web page that provides current information on
                                           biosafety issues and identifies individuals in the
                                           Working Group that can be contacted for assistance.
                                           Recently, the Working Group provided information
                                           regarding the “Public Health Security and Bioterrorism
                                           Preparedness and Response Act for 2002,” including a
                                           digest of the new law and actions required by the
                                           Department. (IG-0492)

                                       •   NNSA advised the OIG that in response to our findings
                                           about the inadequacy of the reporting of a radiological
                                           incident at LANL, LANL officials initiated a formal
                                           investigation that generated 119 corrective actions.
                                           LANL has completed 108 of the corrective actions and
                                           expects to complete the others by the end of 2003.
                                           (IG-0591)
     Did you know?

     The False Claims Act (Act)        Qui Tams
     prohibits any person from
     “knowingly” presenting “a false   Since 1996, the OIG has been instrumental in working with
     or fraudulent claim for
     payment or approval” to the
                                       the Department of Justice (DOJ) in Qui Tam cases in
     Federal Government. The Act       which it is alleged that a Department contractor or grantee
     authorizes individual citizens    has submitted false claims. The OIG is currently working
     to bring private suits,           with the DOJ on 22 Qui Tam lawsuits involving alleged
     referred to as Qui Tam
                                       fraud against the Government in the amount of
     actions, to enforce the Act
     on behalf of the Government.      approximately $189 million.

     Source: False Claims Act.
                                       Management Referral System
                                       The OIG operates an extensive Management Referral
                                       System. Under this system, selected matters received
                                       through the OIG Hotline or other sources are referred to the
                                       appropriate Department manager or other Government
                                       agency for review and appropriate action. Complaints


42
                     At Your Service

             referred may include such matters as time and attendance
             abuse, misuse of Government vehicles and equipment,
             violations of established policy, and violations of standards
             of conduct.

             The OIG referred 111 complaints to Department
             management and other Government agencies during this
             reporting period and specifically requested Department
             management to respond concerning the actions taken on 24
             of these complaints. Otherwise, Department management is
             asked to respond if it develops information or takes action
             that it believes should be reported. During the reporting
             period management reported that five personnel actions
efficiency

             (e.g., suspension or termination) were taken and almost
             $7,000 in funds were recovered. In addition, the following
             management responses are particularly noteworthy because
             they demonstrate management’s use of referred information
             to stimulate positive change or to take decisive action.

             •   A team from the Office of Environmental Management
                 and the Office of Environment, Safety and Health
                 partially substantiated allegations that contractor
                 employees at the Fernald site were improperly trained
                 and certified to work at hazardous waste sites. Federal
                 regulations require persons dealing with hazardous
                 materials to receive at least 40 hours of instruction “off
                 the site” and a minimum of 3 days’ actual field
                 experience “under the direct supervision of a trained,
                 experienced supervisor.” In particular, the team found
                 the field experience portion of the training needed
                 improvement and recommended that the site contractor
                 develop a training implementation plan to ensure that
                 the 3-day field portion of the training benefits the
                 employees and builds confidence so that employees can
                 safely perform their duties. The team also
                 recommended that the Director of Safety and
                 Engineering “conduct periodic reviews of training
                 practices” in the course of visiting sites “to ensure that
                 the training implementation is carried out effectively.”

             •   The Deputy General Counsel for Technology, Transfer
                 and Procurement concluded that a Department
                 management and operating contractor created a conflict
                 of interest when it formed a corporation with a
                 Cooperative Research and Development Agreement


                                                                          43
                              At Your Service

                         (CRADA) partner. The Deputy General Counsel
                         recommended that the management and operating
                         contractor draft special procedures for cases in which it
                         has an equity interest with its CRADA partners and
                         licensees.

                     •   Management inquired into an allegation that a contractor
                         employee at a Department laboratory was misusing time
                         and equipment. The contractor employee allegedly
     effectiveness
                         viewed Internet pornography and visited “chat rooms”
                         on a regular basis. The contractor employee admitted
                         wrongdoing and received a 60-day suspension without
                         pay.

                     Intelligence Activities
                     The OIG issued two quarterly intelligence reports pursuant
                     to Executive Order 12863, “President’s Foreign Intelligence
                     Advisory Board.” The Order requires the Inspectors
                     General of the Intelligence Community to report to the
                     Intelligence Oversight Board concerning intelligence
                     activities that Inspectors General have reason to believe may
                     be unlawful or contrary to Executive order or Presidential
                     directive. No intelligence activities were identified that
                     were contrary to Executive order or Presidential directive.

                     Legislative and Regulatory Review
                     The OIG coordinated and reviewed 13 legislative and
                     regulatory items, as required by the Inspector General Act of
                     1978 (Act). The Act requires the OIG to review existing
                     and proposed legislation and regulations relating to
                     Department programs and operations and to comment on the
                     impact which they may have on economical and efficient
                     operations of the Department.

                     Hotline System
                     The OIG operates a Hotline System to facilitate the
                     reporting of allegations involving the programs and
                     activities under the auspices of the Department. During the
                     reporting period, the Hotline processed 590 complaints.




44
                    At Your Service

          President’s Council on Integrity and
          Efficiency
          The OIG is pleased to report that members of our staff
          received the following PCIE Awards for Excellence:

          Nuclear Material Accountability Team - for conducting
          several high impact audits in the area of nuclear material
          accountability that attracted the attention of Congress,
          other agencies and the media.

          PCIE Audit Committee Peer Review Working Group - an
economy

          interagency group recognized for improving the quality
          and effectiveness of the peer review process through the
          revision and update of the April 1997 Peer Guide for
          Conducting External Quality Control Reviews of the Audit
          Operations of the Offices of Inspector General.

          Accountability and Control of Sealed Radioactive
          Sources Inspection Team - for conducting an inspection
          that resulted in identifying a number of actions needed to
          assure that sealed radioactive sources were properly
          controlled, inventoried, and leak-tested.

          Fresh Pursuit Policies and Practices Inspection Team -
          for conducting a review that looked at the policies and
          procedures applicable to the immediate pursuit for the
          purpose of preventing the escape or effecting the arrest of
          fleeing suspected terrorists or criminals who are in
          unauthorized control/possession of nuclear weapons/
          weapons components or special nuclear material.

          Ashtabula Environmental Management Team - for
          combined audit, inspection, and investigative efforts that
          resulted in improved controls over Government-owned
          personal property and environmental remediation
          alternatives and cost sharing strategies that could save the
          Department about $51 million in environmental
          remediation costs over the life of the project.




                                                                         45
                                                             At Your Service

                                                 AUDIT REPORTS ISSUED
                                               October 1, 2002, to March 31, 2003

                 REPORT                                                    DATE OF                            QUESTIONED
                                                TITLE                                        SAVINGS
                 NUMBER                                                     ISSUE                               COSTS
                  IG-0571      Idaho Settlement Agreement Activities       10-09-02



                  IG-0572      Business Management Information             11-04-02
                               System


                  IG-0573      Remote Treatment Facility                   11-05-02
Reports Issued




                  IG-0574      Calutron Isotope Production                 11-14-02        $51,000,000
                               Capabilities


                  IG-0575      Resolution of Significant Finding           11-18-02
                               Investigation Recommendations


                  IG-0577      Planned Characterization Capability at      12-18-02
                               the Waste Isolation Pilot Plant


                  IG-0579      The Department’s Unclassified Foreign       12-23-02
                               Visits and Assignments Program


                  IG-0580      Management Challenges at the                12-31-02
                               Department of Energy


                  IG-0581      National Nuclear Security                   01-02-03
                               Administration’s Nuclear Explosive
                               Safety Study Program
                  IG-0582      Personnel Security Clearances and           01-24-03
                               Badge Access Controls at Selected
                               Field Locations
                  IG-0583      Management of Beryllium Metal Supply        01-27-03        $42,000,000



                  IG-0586      Information System Development              02-21-03
                               Practices at the Bonneville and Western
                               Area Power Administrations
                  IG-0588      Treatment of Mixed Incinerable Waste        03-03-03        $45,000,000




                 Additional information on the OIG, including the full text of its public reports and Department
46               management’s comments, can be found on the OIG website – www.ig.doe.gov.
                                                           At Your Service

                   IG-0589     Transfer of Excess Personal Property       03-11-03
                               from the Nevada Test Site to the
                               Community Reuse Organization
                   IG-0590     Refurbishment of the W80 - Weapon          03-13-03
                               Type

                 IG-FS-03-01   Department of Energy’s Consolidated        01-21-03
                               Financial Statements


                 OAS-L-03-01   Procurement at the Rocky Flats             10-29-02
                               Environmental Technology Site

                 OAS-L-03-02   Project Management Practices in the        11-04-02
                               Office of Science
Reports Issued




                 OAS-L-03-03   Follow-Up Audit on the Department’s        12-03-02
                               Management of Field Contractor
                               Employees Assigned to Headquarters
                               and Other Federal Agencies
                 OAS-L-03-04   Follow-Up Audit on Internet Privacy        12-05-02



                 OAS-L-03-05   Federal Managers’ Financial Integrity      01-10-03
                               Act Audit Report

                 OAS-L-03-06   Recruitment and Retention at the Los       11-27-02
                               Alamos and Lawrence Livermore
                               National Laboratories
                 OAS-L-03-07   Subcontracting Practices at the Savannah   12-02-02
                               River Site


                 OAS-L-03-08   Recruitment and Retention of Personnel     01-22-03
                               in the Department of Energy

                 OAS-L-03-09   Review of the Department’s                 01-22-03
                               Administration of Financial Instruments

                 OAS-L-03-10   Audit of the Research and Development      02-19-03
                               Investment Criteria for Fossil Energy


                 OAS-L-03-11   Audit of the Office of Science             02-26-03
                               Infrastructure Modernization Initiatives


                 OAS-L-03-12   Department of Energy’s Safety Bases for    03-05-03
                               Nuclear Facilities




                                                                                     47
                                                            At Your Service


                 OAS-C-03-01 Final Audit of Princeton University’s Costs   11-18-02    $4,057
                             Claimed for National Aeronautics and
                             Space Administration Contract
                             NAS5-96021
                 OAS-V-03-01 Assessment of Changes to the Internal         10-28-02   $977, 684
                             Control Structure and Their Impact on the
                             Allowability of Costs Claimed by and
                             Reimbursed to Bechtel Nevada Corporation
                             Under Department of Energy Contract No.
                             DE-AC08-96NV11718
                 OAS-V-03-02 Assessment of Changes to the Internal         11-01-02
                             Control Structure and Their Impact on the
                             Allowability of Costs Claimed by and
Reports Issued




                             Reimbursed to Argonne National
                             Laboratory Under Department of Energy
                             Contract No. W-31-109-ENG-38
                 OAS-V-03-03 Assessment of Changes to the Internal         11-05-02
                             Control Structure and Their Impact on
                             the Allowability of Costs Claimed by
                             and Reimbursed to Battelle-Pacific
                             Northwest National Laboratory Under
                             Department of Energy Contract No.
                             DE-AC06-76RL01830
                 OAS-V-03-04 Assessment of Changes to the Internal         12-19-02
                             Control Structure and Their Impact on the
                             Allowability of Costs Claimed by and
                             Reimbursed to the Midwest Research
                             Institute Under Department of Energy
                             Contract No. DE-AC36-99GO10337
                 OAS-V-03-05 Assessment of Changes to the Internal         02-28-03
                             Control Structure and Their Impact on the
                             Allowability of Costs Claimed by and
                             Reimbursed to the Westinghouse Savannah
                             River Company Under Department of
                             Energy Contract No.
                             DE-AC09-96SR18500

                 CR-FC-03-01 Federal Energy Regulatory Commission’s        03-19-03
                             Fiscal Year 2002 Financial Statement Audit




                 CR-FC-03-02 Department of Energy Isotope Program’s        03-28-03
                             Fiscal Year 2002 Financial Statement Audit




48
                                                                  At Your Service

                 CR-FS-03-01 Information Technology Management                    02-25-03
                             Letter on the Audit of the Department
                             of Energy’s Consolidated Financial
                             Statements for Fiscal Year 2002

                 CR-FS-03-02 Management Letter on the Audit of the                03-06-03
                             Department of Energy’s Consolidated
                             Financial Statements for Fiscal Year
                             2002
Reports Issued




                       The OIG’s Audit Followup Action:


                       •   OIG recommended corrective actions agreed to by the Department
                           are tracked by the Department until complete.


                       •   The OIG follows up on all Department nonconcurrences with OIG
                           report recommendations.


                       •   When the Department and the OIG disagree, the Department must
                           prepare a Management Decision describing its position and any
                           alternative action.


                       •   The Department’s Office of Management, Budget and Evaluation/
                           Chief Financial Officer reviews the Management Decisions and may
                           convene a meeting of the Departmental Internal Control and Audit
                           Review Council (DICARC) to achieve mutually agreeable resolution.




                                                                                               49
                                                              At Your Service

                                              INSPECTION REPORTS ISSUED
                                                 October 1, 2002, to March 31, 2003*

                      REPORT
                                                                   TITLE                              DATE OF ISSUE
                      NUMBER

                       IG-0576         Inspection of Nuclear Safety at the Ashtabula Environmental       11-26-02
                                       Management Project
                       IG-0578         Inspection of Explosives Safety at Selected Department of         12-19-02
                                       Energy Sites
                       IG-0585         Inspection of Implementation of Corrective Actions Resulting      02-12-03
                                       From Force-on-Force Performance Tests
                       IG-0587         Inspection of Firearms Internal Controls at Los Alamos            02-21-03
                                       National Laboratory
                       IG-0591         Allegations Concerning the Reporting of a Radiological            03-20-03
Reports Issued




                                       Incident at the Los Alamos National Laboratory
                       IG-0592         Actions Taken in Response to Missing Hazardous Waste              03-21-03
                                       Containing Cyanide

                       IG-0594         Emergency Medical Coordination Memorandum of Agreement            03-3l-03
                                       at Brookhaven National Laboratory
                      S021S013         Inspection of 2001 Safeguards and Security Survey of Los          02-12-03
                                       Alamos National Laboratory
                     INS-L-03-01       Review of Sensitive Information on Department Websites            12-18-02

                     INS-L-03-02       Review of an International Agreement                              01-08-03

                     INS-L-03-03       Directing of Subcontract Tasks at the Oak Ridge National          01-09-03
                                       Laboratory
                     INS-L-03-04       Award of the Waste Isolation Pilot Plant Transportation           02-10-03
                                       Contract
                     INS-L-03-05       DOE Departmental Management Program                               02-10-03


                 *Does not include non-public reports




                             OFFICE OF SPECIAL INQUIRIES REPORTS ISSUED
                                                    October 1, 2002, to March 31, 2003

                     REPORT
                                                                 TITLE                                DATE OF ISSUE
                     NUMBER


                     IG-0584          Special Inquiry on Operations at Los Alamos National              01-28-03
                                      Laboratory

50
                                                           At Your Service

                                             AUDIT REPORT STATISTICS
                                              October 1, 2002, to March 31, 2003
                             The following table shows the total number of operational and financial audit reports,
                                              and the total dollar value of the recommendations.


                                               TOTAL            ONE TIME              RECURRING               TOTAL
                                              NUMBER            SAVINGS                SAVINGS               SAVINGS

              Those issued before the
              reporting period for which         19           $3,613,668,713          $140,233,550        $3,753,902,263
              no management decision
              has been made:*

              Those issued during the            37            $138,977,684                $0              $138,977,684
              reporting period:

              Those for which a
              management decision was            25            $307,082,936           $70,120,000          $377,202,936
              made during the reporting
Statistics




              period: *

              Agreed to by management:                           $189,526                  $0                $189,526

              Not agreed to                                     $46,341,860           $50,120,000          $96,461,860
              by management:

              Those for which a
              management decision is             19                  $0                    $0                    $0
              not required:

              Those for which no
              management decision had
              been made at the end of            12           $3,706,115,001          $90,113,550         $3,796,228,561
              the reporting period.*

             *The figures for dollar items include sums for which management decisions on the savings were
              deferred.




               Additional information on the OIG, including the full text of its public reports and Department
               management’s comments, can be found on the OIG website – www.ig.doe.gov.                                 51
                                                         At Your Service

                                              AUDIT REPORT STATISTICS
                                              October 1, 2002, to March 31, 2003
                         The following table shows the total number of contract audit reports, and the total
                                     dollar value of questioned costs and unsupported costs.


                                                       TOTAL            QUESTIONED                UNSUPPORTED
                                                      NUMBER              COSTS                      COSTS

             Those issued before the reporting
             period for which no management                4               $4,458,647                   $84,241
             decision has been made:

             Those issued during the reporting
             period:                                       1                 $4,057                       $0

             Those for which a management
             decision was made during the                  1                 $25,753                      $0
Statistics




             reporting period:


             Value of disallowed costs:                                      $25,743                      $0

             Value of costs not disallowed:                                     $0                        $0

             Those for which a management
             decision is not required:                     0                    $0                        $0

             Those for which no management
             decision had been made at the end             4               $4,436,951                   $84,241
             of the reporting period:




52
                                At Your Service

             REPORTS LACKING MANAGEMENT DECISION
             The following are audit reports issued before the beginning of the
             reporting period for which no management decisions had been made by
             the end of the reporting period. The reasons management decisions had
             not been made and the estimated dates (where available) for achieving
             management decisions are also included. These audit reports are over 6
             months old without a management decision. The Department has a
             system in place which tracks audit reports and management decisions.
             Its purpose is to ensure that recommendations and corrective actions
             indicated by audit agencies and agreed to by management are addressed
             and effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following
             contract reports. The reasons for not doing so included: (1) the
             delaying of settlement of final costs questioned in audits pending
             completion of review of work papers; (2) voluminous additional
Statistics




             records; (3) additional work by the Defense Contract Audit Agency; and
             (4) completion of certain legal and contractual investigations.

             WR-C-95-01            Independent Final Audit of Contract No.
                                   DE-AC34-RIRF00025, July 26, 1990, to
                                   March 31, 1993, Wackenhut Services, Inc.,
                                   Golden, Colorado, March 14, 1999
                                   (Estimated date of closure: September 30, 2003)

             ER-C-97-01            Report on Interim Audit of Costs Incurred Under
                                   Contract No. DE-AC24-92OR219721 from
                                   October 1, 1994, to September 30, 1995, Fernald
                                   Environmental Restoration Management
                                   Corporation, Fernald, Ohio, December 20, 1996
                                   (Estimated date of closure: May 31, 2003)

             ER-C-00-03            Interim Audit of Thomas Jefferson National
                                   Accelerator Facility Costs Incurred Under
                                   Contract No. DE-AC05-84ER40150 Fiscal Year
                                   1994 Through 1999
                                   (Estimated date of closure: November 30, 2003)

             Additional time was necessary to develop management decisions for the
             following reports. Further explanations for the delays follow each audit
             report.

             CR-B-99-02            Management of Unneeded Material and
                                   Chemicals, September 30, 1999

                                                                                  53
                       At Your Service

                          Implementation/action plan and Management
                          Decision brief to be provided to the Under
                          Secretary for Energy, Science and
                          Environment and the Under Secretary for
                          Nuclear Security/Administrator for National
                          Security Administration by July 30, 2003.

             IG-0508      Stocked Inventory at the Savannah River Site,
                          June 27, 2001

                          A final management decision is being
                          reviewed by the necessary Department
                          Elements. It is estimated that this will occur
                          by May 30, 2003.

             IG-0516      Information Technology Support Services
                          Contract, August 23, 2001
Statistics




                          Management has begun implementing
                          corrective action to address the report
                          recommendations even though the final
                          management decision has not yet been
                          communicated. A management decision is
                          expected by May 30, 2003.

             IG-0532      Progress of the Spallation Neutron Source
                          Project, November 19, 2001

                          The finalization of the Management Decision
                          on this report is awaiting resolution of one
                          outstanding issue. It is estimated that this will
                          occur by December 30, 2003.

             IG-0537      Telecommunications Infrastructure,
                          December 21, 2001

                          Management has begun implementing
                          corrective action to address the report
                          recommendations even though the final
                          management decision has not yet been
                          communicated. A management decision is
                          expected by May 30, 2003.




54
                       At Your Service

             IG-0540    Advanced Radioisotope Power Systems Program,
                        January 14, 2002

                        The finalization of the Management Decision is
                        pending the resolution of complex issues. This is
                        expected to occur by December 30, 2003.

             IG-0545    Cyber-Related Critical Infrastructure
                        Identification and Protection Measures,
                        March 20, 2002

                        The Management Decision is awaiting the
                        resolution of a nonconcurrence. It should be
                        made by September 30, 2003.

             IG-0553    Alternative Fuels Use at the Department of
                        Energy, May 2, 2002
Statistics




                        A final management decision is being reviewed
                        by the necessary Department elements. It is
                        estimated that this will occur by May 30, 2003.

             IG-0559    Privatization of Safety Management Services at
                        the Savannah River Site, June 18, 2002

                        A final management decision is being reviewed
                        by the necessary Department Elements. It is
                        estimated that this will occur by May 30, 2003.

             IG-0565    Salt Processing Project at the Savannah River
                        Site, August 27, 2002

                        The finalization of the management decision on
                        this report is awaiting review and mandatory
                        concurrence by several organizations. It is
                        estimated that this will occur by June 30, 2003.




                                                                        55
                                                            At Your Service

                                            INVESTIGATIVE STATISTICS
                                              October 1, 2002, to March 31, 2003

             Investigations open at the start of this reporting period                                   210

             Investigations opened during this reporting period                                           78

             Investigations closed during this reporting period                                           64

             Investigations open at the end of this reporting period                                     222

             Qui Tam investigations opened                                                                  2

             Total open Qui Tam investigations as of 03/31/03                                             22

             Multi-agency task force investigations opened                                                18

             Total open multi-agency task force investigations as of 03/31/03                             81

             Investigative reports to prosecutors and Department management                               18
Statistics




             Recommendations to management for positive change and other actions                          23

             Administrative discipline and other management actions                                       24

             Suspensions/Debarments                                                                         4

             Investigations referred for prosecution                                                      21

             Accepted*                                                                                    13

             Indictments                                                                                  12

             Criminal convictions                                                                         13

             Pretrial diversions                                                                            0

             Civil actions                                                                                  3

             Fines, settlements, recoveries**                                                       $1,109,590.41



             *Some of the investigations appearing during the 6-month period were referred for prosecution during
             a previous reporting period.
             **Some of the money collected was the result of task force investigations.




56
                                                            At Your Service

                                               INSPECTION STATISTICS
                                             October 1, 2002, to March 31, 2003

             Inspections open at the start of this reporting period                                   54

             Inspections opened during this reporting period                                          13

             Inspections closed during this reporting period                                          13

             Inspections open at the end of this reporting period                                     54

             Reports issued (includes non-public reports)                                             16

             Inspection Recommendations

                    Accepted this reporting period                                                    35

                    Implemented this reporting period                                                 21
Statistics




             Complaints referred to Department management/others                                     111

                    Referrals to Department management requesting a response for OIG evaluation       24

                    Personnel management actions taken by management on matters referred                 5

                    Funds Recovered                                                               $6,927




                                                     Hotline Statistics


               Hotline calls, e-mails, letters, and other complaints                               590
               Hotline calls, e-mails, letters, and other complaints predicated                    201
               Unresolved Hotline predications from previous reporting periods                      15
                  Total Hotline predications                                                       216
               Hotline predications transferred to the Management Referral System                  127
               Hotline predications closed based upon preliminary OIG activity                      69
               Hotline predications pending disposition                                             20
                  Total predications processed                                                     216


                                                                                                             57
                                 At Your Service



                   FEEDBACK SHEET

     The contents of the April 2003 Semiannual Report to
     Congress comply with the requirements of the Inspector
     General Act of 1978, as amended. However, there may be
     additional data which could be included or changes in
     format which would be useful to recipients of the Report.
     If you have suggestions for making the Report more
     responsive to your needs, please complete this feedback
     sheet and return it to:

                       Department of Energy
                Office of Inspector General (IG-121)
                      Washington, D.C. 20585

                  ATTN: Wilma Slaughter



     Your name:

     Your daytime telephone number:

     Your suggestion for improvement: (Please attach
     additional sheets if needed.)




58
DOE/IG-0028
                            United States Department of Energy




                              Office of Inspector General

Inspector General's
Message - Page 1

The Department's
Management Challenges
and Significant OIG
Accomplishments
Page 4

Other Significant
Accomplishments
Page 34




OIG Reports Issued
and Followup Action
Process - Page 46


Statistical Data-Savings,
Questioned Costs,
Hotline Statistics, and
Fines, Settlements
and Recoveries
Page 51
                                  October 1, 2002 - March 31, 2003
